HHS/OIG - Audit,"Audit of Graduate Medical Education Reimbursements Claimed by the Washington Hospital Center for Fiscal Year 2000,"(A-03-01-00018)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Graduate Medical Education Reimbursements Claimed by the Washington Hospital Center for Fiscal Year 2000," (A-03-01-00018)
May 7, 2002
Complete
Text of Report is available in PDF format (810 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report covers the audit of $27,182,110 in graduate medical education reimbursements claimed by the Washington
Hospital Center (WHC) for Fiscal Year 2000.  The objective of this review was to determine the accuracy of resident
Full Time Equivalent (FTE) counts used to calculate direct graduate medical education (GME) and indirect medical education
(IME) payments.  We identified and recommended for adjustment $768,246, because WHC claimed reimbursement for residents:  (a)
who participated in unapproved training; (b) who spent time in unallowable research activities; (c) who exceeded their
initial residency period yet were counted as if they were within their initial residency period; (d) who rotated to non-hospital
settings; and (e) whose time was not supported with adequate documentation.